E-Mail Address: 775 H Street, N.E.

Est oa! briefs@wilsonepes.com Washington, D.C. 20002
WSO PT Web Site: Tel (202) 789-0096
awa www.wilsonepes.com Fax (202) 842-4896
No. 19-1039

PENNEAST PIPELINE COMPANY, LLC,
Petitioner,

v.

NEW JERSEY, ET AL.
Respondents.

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on April 7, 2021, three (3) copies of the BRIEF OF THE STATES
OF OREGON, CALIFORNIA, CONNECTICUT, DELAWARE, HAWAII, ILLINOIS, MAINE,
MARYLAND, MASSACHUSETTS, MICHIGAN, MINNESOTA, NEVADA, NEW MEXICO,
NEW YORK, NORTH CAROLINA, RHODE ISLAND, VERMONT, VIRGINIA AND
WASHINGTON, AS AMICI CURIAE IN SUPPORT OF RESPONDENTS in the above-captioned
case were served, as required by U.S. Supreme Court Rule 29.5(c), on the following:

PAUL D. CLEMENT JEREMY MICHAEL FEIGENBAUM
KIRKLAND & ELLIS LLP OFFICE OF THE NEW JERSEY
1301 Pennsylvania Avenue, NW ATTORNEY GENERAL
Washington, DC 20004 25 Market Street
Counsel for Petitioner PennEast Pipeline P.O. Box 112
Company, LLC Trenton, NJ 08611
MATTHEW LITTLETON Counsel for Respondent New Jersey, et al.
DONAHUE, GOLDBERG, WEAVER & LITTLETON JENNIFER LYNN DANIS
1008 Pennsylvania Ave SE EDWARD LLOYD
Washington, DC 20003 MORNINGSIDE HEIGHTS LEGAL SERVICES
Counsel for Respondent New Jersey 435 W. 116th Street
Conservation Foundation New York, NY 10027

Counsel for Respondent New Jersey
Conservation Foundation

The following email addresses have also been served electronically:

paul.clement@kirkland.com
jeremy.feigenbaum@njoag.gov
benjamin.gutman@doj.state.or.us
matt@donahuegoldberg.com
jld2228@columbia.edu
elloyd@law.columbia.edu
ROBYN DoRSEY WILLIS

WILSON-EPES PRINTING COMPANY, INC.
775 H Street, N.E.

Washington, D.C. 20002

(202) 789-0096

Sworn to and subscribed before me this 7th day of April 2021.

 

Notary PUBLIC
District of Columbia

My commission expires April 14, 2022.

 
